                                                                  i
                                CLOSEOUT FOR ~94040017



         On 25 April 1994, Dr.                     a scientistlmvestigator in the Office of Research
 Integrity (ORI) within the Public Health Service (PHs), provided OIG with material ORI had
 received from ~                        r the complainant. ORI,   had reviewed these materials and
 determined that it did not have jurisdiction over this case because no PHs fbnds were involved.

          OIG reviewed the materials and learned that the complainant, then a faculty member in the
 Department o                                f the ~niversi-                   had sent a letter to the
 chairman of the Member Conduct Committee of the
( t h e Society). In his letter the complainant described two allegations. ~irst,-healleged
                                                    (subjects 1 and 2, respectively), members of the
                                                      the UniversityN
                                                                    dah-^i                        failed
 to credit his contributions to their 1992 paper. Second, he alleged that subject 2 had "failed to
 avoid injuring [his] reputation" when the subject had characterized as "suspect" an equation
                         .
 ~ublishedin a 1985 uaDer bv the comulainant. OIG determined that NSF did have iurisdiction
 over this case b a s e sub& 2 was ;he PI on-                              lI--   J
                   " which provided support for the work about which the complainant had made his
7   egations. The Society's Committee did not investigate the first allegation because the subjects'
 published paper was more than two years old. The Society's rules state that it will only consider
 complaints filed within two years of the alleged bad conduct. The Committee concluded that the
 materials provided by the complainant supporting his second allegation did not provide "sufficient
 justification for the initiation of proceedings."

         Allegation 1 concerns two papers published by the subjects. The first paper was published
 in 1991 although the original manuscript was sent to reviewers in 1988. The first revision was
 sent to reviewers in 1989, and the final version was sent in 1990. The complainant reviewed and
 commented on all three drafts. He consistently and strongly urged the authors to include
 additional citations to his own work and to clarifjr that the subjects' work relied heavily on his
 work. In response, the authors added additional citations to the complainant's papers in the text
 and included more of these papers in the bibliography. In his final critique, the complainant
 suggested that they delete an entire section of their paper and simply cite his earlier work. The
 authors did not delete the section in the published paper.

         The authors' second paper, published in 1992, was a follow-on to the 1991 paper. It
 stated that while the general principle being tested was fiom another researcher's work, it was the
 complainant's work that first practically employed the principle. The complainant alleged that the
 subjects failed, in their second paper, to cite his contributions, as a reviewer, to their 1991 paper.
 He believed that without acknowledging his contributions to the first paper, readers of the second
 paper would come to the incorrect conclusion that the authors originally developed a formula that
 he had developed. OIG found that the authors' second paper contains references to two of the
 complainant's papers, numerous citations to those papers in the text, a clear statement about the

                                          Page 1 of 2                                M94- 17
                              CLOSEOUT FOR M94040017
complainant's work, and several citations to their 1991 paper which also contains multiple
references to the complainant's papers.

       As described by the circumstances of this case, it is well within the standard practice of the
community for the subjects to have published a paper that provided citations to the complainant's
prior work and then in a new paper to cite their prior paper as the basis for the work described in
the new paper. Generally authors are not required to acknowledge the contributions of
anonymous reviewers to their final published work. In this case, the authors' citation and
acknowledgment practices were well within the community norms and are not serious deviations
fiom accepted practice. OIG determined that there was no substance to this allegation.

        In allegation two, the complainant alleged that subject 2 co-authored a 1993
correspondence paper that "pointed out" an "error" in a final equation found in a paper by the
complainant and that cautioned that the h a l equation's validity had not been proven under other
conditions. The complainant alleged that subject 2 had relied on this final equation in paper 2
and should therefore have included cautions about his own work as well. By failing to state this,
the subject had damaged the complainant's reputation. However, OIG and an NSF expert
reviewed the subject's paper and found that it stated that an "error" had been found in a formula
used to derive the complainant's final equation. This error was counterbalanced by a subsequent
erroneous assumption and the final equation, although based on two errors, had been shown to be
correct under certain conditions. The final equation used by the subject in paper 2 was one that
was derived AFTER the counterbalancing errors were made and therefore was defensible. This is
not an issue of misconduct in science. Scientists are free to criticize each other's work. The
subject has done so in a scientificjournal and carehlly qualified his criticisms of the complainant's
work. The complainant is fkee to refite the subject's assertions in a subsequent paper.

       OIG and the NSF expert concluded that there was no substance to this allegation.

       This inquiry is closed and no hrther action will be taken in this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 2 of 2
